   December 18, 2003




Cooperative Threat Reduction

Cooperative Threat Reduction
Construction Projects
(D-2004-039)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CTR                   Cooperative Threat Reduction
CWDF                  Chemical Weapons Destruction Facility
DTRA                  Defense Threat Reduction Agency
DUSD(TSP&CP)          Deputy Under Secretary of Defense (Technology Security Policy
                         and Counterproliferation)
FMSF                  Fissile Material Storage Facility
HEU                   Highly Enriched Uranium
IG DoD                Inspector General of the Department of Defense
LPDF                  Liquid Propellant Disposition Facility
MINATOM               Ministry of Atomic Energy
SRMDF                 Solid Rocket Motor Disposition Facility
          Office of the Inspector General of the Department of Defense
Report No. D-2004-039                                                     December 18, 2003
   (Project No. D2002LG-0219.01)

            Cooperative Threat Reduction Construction Projects

                                   Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers who
manage contracts and international programs should read this report. This report
discusses topics of significant congressional, national, and international interest.
Background. This report, which is one in a series requested by the Deputy Secretary of
Defense, evaluates DoD management of the fissile material storage project and the
chemical weapons destruction project under the Cooperative Threat Reduction (CTR)
program. This report also discusses Inspector General of the Department of Defense
(IG DoD) Report No. D-2002-154, “Cooperative Threat Reduction Program Liquid
Propellant Disposition Project,” September 30, 2002, and IG DoD Report
No. D-2003-131, “Cooperative Threat Reduction Program: Solid Rocket Motor
Disposition Facility Project,” September 11, 2003. The objectives of the CTR program
are to destroy chemical, nuclear, and other weapons; to transport, store, disable, and
safeguard weapons until their destruction; and to establish verifiable safeguards against
proliferation of weapons of mass destruction.

For the fissile material storage project, DoD agreed to assist Russia with the storage of
fissile material from dismantled nuclear weapons to ensure that the destruction of nuclear
weapons was not interrupted. The fissile material storage facility can store
25,344 containers of fissile material. For the chemical weapons destruction project, DoD
agreed to assist Russia in creating a facility to destroy Russian nerve agents, along with
the munitions in which they are contained. After the nerve agents are neutralized, Russia
plans to encase the neutralized chemicals in a type of asphalt called bitumen for
long-term storage.
Results. In IG DoD Report No. D-2002-154, we reported that Russia will not use the
liquid propellant disposition facility because Russia stated that it had used the liquid
propellant for commercial space launches. In IG DoD Report No. D-2003-131, we
reported that Russia stated that it had stopped the solid rocket motor disposition facility
project because Russia could not obtain the land allocation. The United States spent
$95.5 million to assist Russia in converting liquid propellant into commercial products
and $99.7 million to assist Russia in designing and constructing the solid rocket motor
disposition facility.

Similar to the situation with the liquid propellant disposition facility project, there are
risks that Russia may not fully utilize the fissile material storage facility. Also, similar to
the situation with the solid rocket motor disposition facility project, there are risks that
Russia will rescind land allocation for the chemical weapons destruction facility. There
are also risks that delays in obtaining design approvals for the chemical weapons
destruction facility will cause the construction schedule to slip and increase costs, that
Russia will not use the designed bituminization building, and that construction and
operation of the facility will be suspended or terminated because of environmental laws.
As of July 2003, DoD has spent $372.8 million for containers and to design and construct
the fissile material storage facility and $203.9 million for the chemical weapons
destruction facility, but Russia may not fully utilize those items to store fissile material
and destroy chemical weapons. DoD could have better managed the risks associated with
those projects had it negotiated implementing agreements that better defined Russia’s
requirements, thus making Russia more responsible for the storage and elimination of
Russian weapons of mass destruction. (See the Finding section of the report for the
detailed recommendations.)

We reviewed the management control program of the Defense Threat Reduction Agency
and identified material management control weaknesses within the CTR Program as
defined by DoD Instruction 5010.40. Management controls over the CTR Program were
not adequate to ensure that facilities constructed to aid Russia in the storage and
destruction of weapons of mass destruction were used for their intended purpose.

Management Comments and Audit Response. Comments from the Deputy Under
Secretary of Defense (Technology Security Policy and Counterproliferation) were
partially responsive. The Deputy Under Secretary needs to readdress the
recommendation to obtain an agreement with the Ministry of Defense outlining the types
and quantities of fissile material to be provided for storage in the Fissile Material Storage
Facility. The Deputy Under Secretary needs to address the recommendations to obtain an
agreement with the Russian Munitions Agency to resolve concerns over the
transportation of chemical weapons to the Chemical Weapons Destruction Facility and
obtain an agreement with the Russian Munitions Agency committing Russia to the
bituminization process. The Deputy Under Secretary also needs to comment on the
revised recommendation to obtain all design package approvals before obligating more
than 40 percent of anticipated project costs. The revised recommendation was based on
Public Law 108-136, “National Defense Authorization Act for FY 2004.” In addition,
the Deputy Under Secretary needs to provide a copy of the signed transparency
agreement with the Ministry of Atomic Energy. We request that the Deputy Under
Secretary provide comments to the final report by January 20, 2004. Comments from the
Director, Defense Threat Reduction Agency were responsive. See the Finding section of
the report for a discussion of management comments and the Management Comments
section of the report for the complete comments.




                                             ii
Table of Contents

Executive Summary                                                               i

Background                                                                     1

Objectives                                                                     3

Finding
     Facilities to Store and Dispose of Russia’s Weapons of Mass Destruction   4

Appendixes
     A. Scope and Methodology                                                  21
          Management Control Program Review                                    22
     B. Prior Coverage                                                         23
     C. Report Distribution                                                    25

Management Comments
     Under Secretary of Defense for Policy                                     27
     Defense Threat Reduction Agency                                           31
Background
    On March 18, 2002, the Deputy Secretary of Defense requested that the Office of
    Inspector General of the Department of Defense (IG DoD) review the Cooperative
    Threat Reduction (CTR) projects that rely on Russian Federation (Russia)
    assurances and that are vulnerable to misuse and review the organizational
    arrangements between the CTR Policy office within the Office of the Under
    Secretary of Defense for Policy and the CTR Directorate at the Defense Threat
    Reduction Agency (DTRA). This report discusses the Fissile Material Storage
    Facility (FMSF) and the Chemical Weapons Destruction Facility (CWDF). On
    September 30, 2002, we issued IG DoD Report No. D-2002-154,“Report on the
    Cooperative Threat Reduction Program Liquid Propellant Disposition Project,”
    and on September 11, 2003, we issued IG DoD Report No. D-2003-131, “Report
    on Cooperative Threat Reduction Program: Solid Rocket Motor Disposition
    Facility Project,” which are summarized in this report. We are continuing to
    evaluate the organizational arrangements between the CTR Policy office within
    the Office of the Under Secretary of Defense for Policy and the CTR Directorate at
    DTRA.

    To reduce the threat posed by weapons of mass destruction in the former Soviet
    Union, Congress enacted Public Law 102-228 (section 2551 [note], title 22,
    United States Code), “Soviet Nuclear Threat Reduction Act of 1991,”
    December 12, 1991. That law designates DoD as the executive agent for the CTR
    Program. Public Law 102-228 and subsequent laws that continue the CTR
    Program are commonly referred to as Nunn-Lugar legislation. The objectives of
    the CTR Program are to destroy chemical, nuclear, and other weapons; to
    transport, store, disable, and safeguard weapons until their destruction; and to
    establish verifiable safeguards against proliferation of weapons of mass
    destruction. From FY 1992 through FY 2003, Congress appropriated $5.1 billion
    for the CTR program.

    Framework for Assistance. DoD provides assistance to countries of the former
    Soviet Union through umbrella agreements and implementing agreements. The
    umbrella agreement with Russia, signed on June 17, 1992, establishes the overall
    framework under which the United States provides assistance to Russia. The
    umbrella agreement, which was to expire in June 1999, was extended by a
    protocol in June 1999 for an additional 7 years.

    The FMSF and CWDF projects are managed under implementing agreements
    between DoD and Russian executive agents. Projects to store fissile materials are
    managed under three implementing agreements with the Ministry of Atomic
    Energy (MINATOM). DoD provided containers for fissile material under an
    implementing agreement that expired in June 1999, and assisted with the design of
    the FMSF under an implementing agreement that expired in October 1996. DoD
    agreed to complete the design and construct the FMSF under the “Agreement
    Between the Department of Defense of the United States of America and the
    Ministry of Atomic Energy of the Russian Federation Concerning the Provision of
    Material, Services, and Training Relating to the Construction of a Safe, Secure,
    and Ecologically Sound Storage Facility for Fissile Material Derived from the
    Destruction of Nuclear Weapons,” September 1993 (FMSF Agreement). The


                                        1
           CWDF project is being managed under the “Agreement Between the Department
           of Defense of the United States of America and the Russian Munitions Agency
           Concerning the Safe, Secure, and Ecologically Sound Destruction of Chemical
           Weapons,” July 1992 (CWDF Agreement).

           DoD Program Management. The Office of the Under Secretary of Defense for
           Policy develops, coordinates, and oversees implementation of policy for the CTR
           program through the Deputy Under Secretary of Defense (Technology Security
           Policy and Counterproliferation) (DUSD[TSP&CP]). DUSD(TSP&CP) negotiates
           implementing agreements with countries of the former Soviet Union. The Office
           of the Under Secretary of Defense for Acquisition, Technology, and Logistics
           manages the execution and implementation of CTR projects through the Assistant
           to the Secretary of Defense (Nuclear, Chemical, and Biological Defense
           Programs).1 The Defense Nuclear Agency, which became the Defense Special
           Weapons Agency in June 1995, managed CTR projects until October 1998. Since
           October 1998, the CTR Directorate, DTRA has managed the daily implementation
           of the CTR program. DTRA operates under the authority, direction, and control of
           the Under Secretary of Defense for Acquisition, Technology, and Logistics.

           Storage of Fissile Material. In October 1992, DoD agreed to assist Russia with
           the storage of fissile material from dismantled nuclear weapons to ensure that the
           destruction of nuclear weapons was not interrupted. The assistance includes
           providing containers and designing and constructing the FMSF. Several changes
           were made to the FMSF including locations, design concepts, and capacity. The
           type of assistance that DoD provided has also expanded.

                   Changes to the Fissile Material Storage Facility. DoD and Russia have
           made several changes to the FMSF project. Initially, two facilities were to be
           constructed, one located in Tomsk, Russia, and another located at Mayak, Russia.
           However, in January 1994, a decision was made to build only the facility located
           at Mayak, Russia. Although MINATOM designed the FMSF to store the
           containers of fissile material horizontally, in November 1994, MINATOM
           changed the design to store the containers vertically. The FMSF design initially
           called for two wings, capable of storing 50,000 containers of fissile material.
           However, Public Law 107-314, “National Defense Authorization Act for
           FY 2003,” limits design and construction of the FMSF to one wing. With one
           wing, the FMSF is capable of storing 25,344 containers of fissile material.

                   Expansion of DoD Assistance. Since the FMSF project began, the type of
           assistance that DoD provides to Russia has expanded. In October 1992, DoD
           agreed to provide Russia up to $15 million for technical assistance to design the
           FMSF. In September 1993, DoD agreed to provide Russia up to $75 million for
           material, training, and services relating to the construction and operation of the
           FMSF. In June 1995, DoD agreed to provide construction support and complete
           design assistance for the FMSF. The U.S. Army Corps of Engineers (the Corps)
           administers the FMSF construction contract and Bechtel National, Incorporated
           (Bechtel) is the DoD contractor for design and construction. DTRA estimates the
           total cost of the FMSF to be $346.9 million and as of July 2003 had spent

1
    CTR positions within the Assistant to the Secretary of Defense (Nuclear, Chemical, and Biological
    Defense Programs) were vacant between 1998 and 2003.



                                                       2
           $303.6 million on the facility. As of November 2003, the Director of CTR Policy
           expected construction of the FMSF to be complete by December 2003.

                   Containers. In June 1992, DoD agreed to provide containers to Russia for
           storing and transporting fissile material. In the implementing agreement for the
           containers, DoD initially agreed to provide up to 10,000 containers, or a maximum
           cost of $50 million. DoD and MINATOM amended the implementing agreement
           twice, increasing the maximum assistance to $80.5 million. By December 1998,
           DoD had purchased 33,293 containers and had delivered 26,456 containers to
           Russia for storage of fissile materials in the first wing of the FMSF. Of the
           remaining 6,837 containers, 6,240 that were produced for the second wing are
           stored in Barstow, California, and the remaining 597 containers cannot be used
           because they are either obsolete or were destroyed during testing. As of
           July 2003, DoD spent $69.2 million on containers.

           Disposal of Russian Chemical Weapons. In May 1996, DoD agreed to assist
           Russia in creating a facility to destroy munitions filled with chemical nerve agents.
           That assistance included developing destruction processes for nerve agents and
           munitions and the design, construction, equipment, systems integration, training,
           and start-up of the CWDF. The CWDF project consists of a complex of buildings
           and structures to destroy 5,460 metric tons of Sarin, Soman, and VX2 nerve agents
           that Russia declared under “The Convention on the Prohibition of the
           Development, Production, Stockpiling and Use of Chemical Weapons and on
           Their Destruction” January 13, 1993 (the Chemical Weapons Convention).
           DUSD(TSP&CP) stated that Russian commitments under the Chemical Weapons
           Convention may limit risks to the CWDF because Russia wants to show that it is a
           responsible international player through the destruction of its chemical weapons.
           The CWDF project is being built in Shchuch’ye, Russia, in the Kurgan Oblast.
           The nerve agents fill nearly 2 million artillery projectiles, 718 bulk-filled Free
           Rocket Over Ground and Scud3 warheads, and 136 bomblet-filled SS-21 missile
           warheads. After the nerve agents are neutralized, Russia plans to encase the
           neutralized chemicals in a type of asphalt, called bitumen, for long-term storage.
           Construction of the CWDF started in March 2003. The Corps administers the
           CWDF construction contract, and Parson Delaware, Inc. (Parsons) is the
           engineering support contractor. DTRA estimates the total cost of the CWDF to be
           $887.3 million and as of July 2003 had spent $203.9 million on the facility.
           DTRA expects the CWDF to be operational by September 2008.


Objectives
           Our audit objective was to evaluate CTR projects that rely on Russian assurances
           and that are vulnerable to misuse. Specifically, we evaluated management of the
           FMSF and CWDF projects and controls over those projects. See Appendix A for a
           discussion of the scope and methodology and Appendix B for prior coverage
           related to the objectives.

2
    VX is O-Ethyl S-2-diisopropylaminoethyl methyl phosphonothiolate.
3
    Name assigned by the North Atlantic Treaty Organization for the Russian R-17 missile.



                                                      3
           Facilities to Store and Dispose of Russia’s
           Weapons of Mass Destruction
           In IG DoD Report No. D-2002-154, we reported that Russia will not use
           the liquid propellant disposition facility (LPDF) because Russia stated that
           it had used the liquid propellant for commercial space launches. In
           IG DoD Report No. D-2003-131, we reported that Russia stated that it had
           stopped the solid rocket motor destruction facility (SRMDF) project
           because Russia could not obtain the land allocation. The United States
           spent $95.5 million to assist Russia in converting liquid propellant into
           commercial products and $99.7 million to assist Russia in designing and
           constructing the SRMDF.

           Similar to the situation with the LPDF project, there are risks that Russia
           may not provide the types and quantities of fissile material the FMSF was
           designed to store. Also, similar to the situation for the SRMDF project,
           there are risks that Russia will rescind the land allocation for the CWDF.
           In addition, there are risks that delays in obtaining design approvals for the
           CWDF will delay construction and increase costs, that Russia will not use
           the designed bituminization building, and that construction and operation
           of the CWDF will be suspended or terminated because of environmental
           laws. Those risks exist because implementing agreements lack
           requirements for Russia to utilize all equipment and facilities provided and
           to provide the resources, adequate access, and transparency rights required
           by the United States for verifying that assistance is being used for intended
           purposes. In addition, DoD did not identify risks or have adequate
           controls in place to mitigate risks when managing projects. As a result,
           although DoD has spent $372.8 million for containers and to design and
           construct the FMSF and $203.9 million for the CWDF, Russia may not
           fully utilize those items to store fissile material and destroy chemical
           weapons.


Management Control Guidance
    Office of Management and Budget Circular No. A-123, “Management
    Accountability and Control,” June 21, 1995, provides guidance to Federal
    managers for improving the accountability and effectiveness of Federal programs
    and operations. The circular requires managers to incorporate basic management
    controls in guidance, plans, procedures, and strategies that govern their programs
    and operations. It states that the controls shall be consistent with specific
    standards drawn from the “Standards for Internal Control in the Federal
    Government,” issued by the General Accounting Office, November 1999 (the
    Standards).

    The Standards provide the framework for establishing and maintaining internal
    controls within the Federal Government. The Standards state that management
    controls serve as the first line of defense in safeguarding assets. The Standards
    also state that management needs to identify risks and should consider all


                                         4
     significant interactions with other parties, as well as internal factors. In addition,
     the Standards require that control activities, which are an integral part of an
     entity’s planning, implementing, reviewing, and accountability for stewardship of
     Government resources, help ensure that actions are taken to address risks.


Agreements to Purchase Uranium and Dispose of Plutonium
     During the time that DoD agreed to assist Russia with the storage of fissile
     materials derived from nuclear weapons, the United States was negotiating an
     agreement to purchase uranium from Russia. Also, while DoD was constructing
     the FMSF, the United States agreed that Russia could dispose of weapons-grade
     plutonium stored in the FMSF by using it as fuel in commercial nuclear reactors.
     The U.S. Department of Energy is overseeing the implementation of both
     agreements, in conjunction with MINATOM.

     Agreement to Purchase Uranium. On February 18, 1993, the United States and
     Russia entered into the “Agreement Between the Government of the United States
     of America and the Government of the Russian Federation Concerning the
     Disposition of Highly Enriched Uranium Extracted From Nuclear Weapons,”
     (Uranium Purchase Agreement). That agreement allows the United States to
     purchase an estimated 500 metric tons of low enriched uranium that Russia had
     converted from highly enriched uranium (HEU). The United States would use the
     uranium as fuel in commercial nuclear reactors.

     Agreement to Dispose of Plutonium. On September 1, 2000, the United States
     and Russia entered into the “Agreement Between the Government of the United
     States of America and the Russian Federation Concerning the Management and
     Disposition of Plutonium Designated as No Longer Required for Defense
     Purposes and Related Cooperation,” (Plutonium Disposition Agreement). That
     agreement allows the United States and Russia to each dispose of 34 metric tons
     of weapons-grade plutonium that was no longer required for defense purposes.
     Russia declared 25 metric tons of plutonium and 9 metric tons of plutonium
     oxide. The agreement states that Russia would dispose of the 25 metric tons of
     plutonium by removing it from the FMSF and using the plutonium in nuclear
     reactors. No later than December 2007, Russia is to begin disposing of at least
     2 metric tons of plutonium a year.


Status of Russian Projects
     In IG DoD Report No. D-2002-154, we reported that Russia will not use the
     LPDF because Russia had used the liquid propellant for commercial space
     launches. In IG DoD Report No. D-2003-131, we reported that Russia stopped
     the SRMDF project because Russia could not obtain the land allocation. DoD
     provided storage containers for fissile material and is designing and constructing
     the FMSF and CWDF for Russia, but there are risks that Russia will not provide
     the types and quantities of fissile material the FMSF was designed to store or that
     it will rescind land allocations for the CWDF. Although the FMSF and CWDF


                                           5
           projects are ongoing, both contain risks similar to those identified in our audits of
           the LPDF and SRMDF in that Russia may not use the FMSF and CWDF for their
           intended purposes. Russian decisions on the amount and types of fissile material
           to be stored could impact whether DoD assistance for the FMSF is fully utilized.
           Design approvals, design changes, Russian laws, and court decisions could impact
           construction and use of the CWDF. As of July 2003, DoD had spent
           $576.7 million on the FMSF and CWDF projects.

           Status of the Liquid Propellant Disposition Facility. In IG DoD Report
           No. D-2002-154, we reported that in January 2002, officials from the Russian
           executive agent, the Russian Aviation and Space Agency, verbally informed
           DTRA that the liquid propellant would not be available for disposal in the LPDF.
           According to DTRA officials, the U.S. Government had spent $95.5 million to
           assist Russia in converting liquid propellant into commercial products. Russia’s
           official response, dated May 24, 2002, was that Russia had used the propellant—
           initially destined for the LPDF—for commercial space launches. As of
           November 2003, DTRA stated it was dismantling the hydrogen generators and
           steam boilers installed in the LPDF and decontaminating and winterizing
           recoverable portions of the facility at an estimated cost of $1.5 million.4 DTRA
           plans to reutilize the steam boilers on other CTR projects and to ship the hydrogen
           generators to the Defense Reutilization Marketing Service for reuse or sale.

           Status of the Solid Rocket Motor Disposition Facility. In IG DoD Report
           No. D-2003-131, we reported that in January 2003, Russia officially stopped the
           SRMDF project located in Votkinsk, Russia, because of problems obtaining the
           land allocation for the facility. A feasibility study for the SRMDF was completed
           in May 1999 and approved by the Russian Aviation and Space Agency in
           July 2001. However, according to DTRA officials, the local population in
           Votkinsk conducted protests for environmental issues that resulted first in
           delaying the land allocation and ultimately in Russia’s decision to stop the
           project. According to DTRA officials, the U.S. Government spent $99.7 million
           to design and begin construction on the SRMDF.

           Status of the Fissile Material Storage Facility. Although delivery of fissile
           material containers to Russia was completed in July 1998 and DoD expects to
           complete construction of the FMSF by December 2003, as of November 2003,
           Russia had not committed to the amount or types of fissile material it would store
           in the facility. The FMSF was designed to store 25,344 containers of fissile
           material, two-thirds containing HEU and one-third containing plutonium.5
           However, in a letter dated April 14, 2003, the Head of the Department of
           International and Foreign Economic Cooperation, MINATOM stated that Russia
           would only store plutonium and uranium that Russia determined to be excess to

4
    In response to the draft of this report, the DUSD(TSP&CP) stated that the $1.5 million equated to the
    value of the equipment being dismantled. Later, officials from the CTR Policy office stated that the
    estimated costs of removing equipment from the LPDF, decontaminating the facility, and winterizing
    portions of the facility were also $1.5 million.
5
    In November 2002, DoD and Russia completed a study to determine if the FMSF could handle the heat
    generated from storing more than the 34 metric tons of plutonium that the FMSF was designed to hold.
    The results of the study were that the FMSF could safely store 100 metric tons of plutonium
    (25,000 containers).



                                                       6
its national security goals. The letter states that Russia will convert surplus HEU
into low enriched uranium to be delivered to the United States under the Uranium
Purchase Agreement. In addition, the letter states that Russia will store only
25 metric tons of surplus plutonium (6,250 containers) at the facility. The
Director of CTR Policy stated that Russia was indecisive on HEU storage at the
FMSF because of the Uranium Purchase Agreement. According to the Director,
uranium storage requirements at the FMSF will depend on the timing and amount
of U.S. uranium purchases under the agreement. The Director of CTR Policy
further stated that if Russia does not provide uranium for storage in the FMSF,
DoD is exploring the possibility of partitioning the FMSF so that the facility can
store plutonium not declared excess to military needs as well as the 25 metric tons
of plutonium currently declared excess to military needs.

Status of the Chemical Weapons Destruction Facility. Design approvals,
design changes, Russian laws, and court decisions could impact the construction
and use of the CWDF. Although DoD started submitting design packages to the
Russian Federal Directorate for the Safe Storage and Destruction of Chemical
Weapons (the Federal Directorate) in March 2001, as of June 2003, Russian
subcontractors to Parsons Delaware, Inc. had obtained only 13 of the 38 design
approvals required to construct the CWDF. Also, although the CWDF design
called for bituminization and storage of the neutralized nerve agents, the Russian
Munitions Agency was considering replacing the bituminization process with a
process to incinerate the neutralized chemicals. In addition, Russian
environmental laws or potential litigation concerning land allocation may prevent
DoD from completing construction of, or operating, the CWDF.

        Design Approvals. According to the DTRA program manager, as of
June 2003, the Federal Directorate had not approved 25 of the 38 design packages
that the Russian subcontractor submitted for approval. For example, although the
design package for the waste storage site was submitted in March 2002, according
to the product manager at Army Chemical Demilitarization, the Federal
Directorate had not approved the package as of September 2003—18 months
later. In May 2003, the CTR Policy office authorized DTRA to begin
construction on the facilities. According to officials from the Corps, the Federal
Directorate must approve design packages before construction begins on each
package. Corps officials attribute the approval delays to Russian bureaucracy,
which ultimately affect the construction schedule and costs.

         Design Changes. In December 1996, DoD and Russia developed a plan
to destroy neutralized nerve agents at the CWDF by bituminization. The CWDF
design includes a bituminization building and 12 waste storage bunkers. In a
March 2003 meeting with CTR Policy officials, the Director of the Russian
Munitions Agency stated that Russia was considering incineration to destroy the
neutralized nerve agents. However, incineration of the nerve agent would be
inconsistent with the original joint plan to destroy the neutralized nerve agents at
the CWDF by bituminization. The Director, CTR Policy informed IG DoD staff
that if Russia decides to incinerate the neutralized nerve agent, Russia must fund
the incineration facility itself. According to an official at Army Chemical
Demilitarization, as of July 2003, DoD had spent $1.1 million to design the
bituminization building.



                                      7
                   Environmental Laws. On March 6, 2002, the Kurgan Region Committee
           for Natural Resources’ State Environmental Expert Review Board (the Board)
           issued an opinion allowing construction of the CWDF. However, the Board may
           suspend or terminate CWDF construction, commissioning, or operations based on
           Article 66 of Russian Federal Law No. 7-FZ, “On Environmental Protection,”
           January 10, 2002. That Article allows environmental protection inspectors from
           the Russian states to issue demands and orders directing legal entities and
           individuals to remedy violations of environmental protection legislation and to
           suspend economic and other operations if such operations are conducted in
           violation of environmental protection legislation.

                    Also, in the March 6, 2002 opinion, the Kurgan Region Committee for
           Natural Resources found that the Russian subcontractor had changed its design
           concepts in the working documents for the water drawdown6 of the industrial area
           and the waste storage site from the design concepts approved by the Board. The
           initial design for the water drawdown was calculated at about 1,000 cubic meters.
           However, according to the product manager for Army Chemical Demilitarization,
           the use of better models in calculating the water drawdown resulted in a revised
           calculation of 1,900 cubic meters during final design documentation preparation.
           The Board concluded that the change in the initial design concepts violated
           Russian environmental protection regulations and procedures. The Board also
           found that there were no design concepts on the discharge and treatment of the
           drainage runoff from the waste storage site after use of the facility is discontinued.

                   Although the design of the water drawdown was not acceptable to the
           Board, the Board recommended the temporary implementation of the proposed
           design during construction of the CWDF. However, in the Board’s opinion, the
           subcontractor is required to revise the working documents related to the
           interception and treatment of the drainage runoff before the CWDF is allowed to
           start operating. In addition, the subcontractor must develop an integrated
           ecological monitoring system to obtain more accurate data on the qualitative
           composition of the ground water. If the Board does not accept the revisions, the
           CWDF cannot become operational and be used to destroy Russia’s nerve agents.
           According to the DTRA program manager, in April 2003, Parsons and the Kurgan
           Region Committee for Natural Resources agreed to a plan to resolve the water
           drawdown design issue by setting milestones for completing required activities.
           As of November 2003, DTRA had prepared a detailed plan, reviewed
           environmental requirements for the disposition of ground water, and awarded a
           subcontract for performing the hydrology work.

                   Potential Litigation. Although the Governor of the Kurgan Oblast
           granted a general land allocation for the CWDF in March 2000, concerns over the
           transportation of nerve agents into Shchuch’ye may cause the Governor to take
           action to suspend the land allocation for the CWDF. According to a Russian
           newspaper, Ural-Press Inform, the local population and Kurgan Oblast officials
           were upset after they learned of the plans to transport nerve agents to Shchuch’ye.
           The newspaper quoted the chairman of the Shchuchanskii Natural Resources
           Committee as saying "the [Russian] government deceived us" when it adopted

6
    Drainage system for lowering the ground water level.



                                                      8
           Resolution No. 5107 and the November 2001 amendment to the Russian law on
           the destruction of nerve agents. According to the newspaper article, the head of
           the Shchuchanskii municipality stated that the amendment to the law was adopted
           in an emergency manner, without taking into account the interest of local
           residents. However, Article 13 of the Russian law on environmental protection
           states that when making decisions on where to locate facilities with operations
           that may have an environmental impact, public opinion should be taken into
           account. Thus, the head of the municipality may use Article 13 to lobby the
           Governor to stop the shipment of nerve agents to the Shchuch’ye area or to
           suspend the land allocation. If the shipment of nerve agents is stopped, the
           CWDF will not be fully utilized. If the Kurgan Oblast suspends the land
           allocation, DoD risks losing its investment. According to the DTRA program
           manager, DoD hopes to obtain favorable public opinion through the use of its
           public outreach program.

                   In a March 18, 2003, amendment to the implementing agreement, Russia
           agreed to eliminate all of its nerve agents at the CWDF. However, the DTRA
           program manager and the product manager at Army Chemical Demilitarization
           confirmed that local governments could use the courts to suspend or render null
           and void the land allocation for the CWDF. The product manager for Army
           Chemical Demilitarization stated that it was unlikely that the land allocation
           would be withdrawn because the region is economically depressed and the CWDF
           project would provide jobs and revenue. That is similar to what DTRA managers
           believed in reference to the SRMDF project. The municipality where the SRMDF
           was to be built, Votkinsk, was also economically depressed and the SRMDF
           project would have provided jobs and revenue. However, although DoD spent
           $99.7 million on the SRMDF, Russia stated that it was unable to obtain the land
           in Votkinsk. Therefore, economically depressed conditions are no guarantee that
           Russia will not suspend the land allocation for the CWDF.


Agreements
           CTR construction projects are at risk of not being fully utilized for their intended
           purpose because agreements with Russia do not adequately protect U.S. interests
           and DoD did not mitigate risks by defining requirements and providing adequate
           access and transparency rights. Specifically, the implementing agreements do not
           require Russia to utilize all equipment and facilities provided by DoD or to
           provide the materials for destruction or storage. The agreements also do not
           provide for adequate access and transparency rights required by the United States
           to verify that assistance is being used for intended purposes.

           Strategic Offensive Arms Elimination-Russia Implementing Agreement. In
           IG DoD Report No. D-2002-154 and Report No. D-2003-131, we reported that
           the LPDF and SRMDF projects were managed under an agreement commonly

7
    Title 22, section 5952, United States Code, requires Russia to pass a law allowing elimination of all nerve
    agents at a single site before DoD starts construction on a facility to destroy chemical weapons. On
    July 5, 2001, Russia adopted Resolution No. 510, allowing chemical weapons from other depots to be
    brought to and destroyed in Shchuch’ye.



                                                        9
           referred to as the Strategic Offensive Arms Elimination-Russia Implementing
           Agreement (SOAE-Russia Agreement). At the time of our reports, the SOAE-
           Russia Agreement did not specifically include U.S. assistance to build the LPDF
           or to destroy solid rocket motors. The liquid propellant annex to the SOAE-
           Russia Agreement states that DoD will provide equipment, services, and training
           so that Russia can incinerate the liquid propellant and its oxidizer. However, in
           April 1994, DoD agreed to finance facilities that would convert the propellant into
           commercial products. Also, the SOAE-Russia Agreement did not identify a
           project to build a facility to destroy solid rocket motors. According to officials
           from the Office of the Under Secretary of Defense for Policy, the SRMDF project
           was justified as a result of specifications in the SOAE-Russia Agreement that
           DoD would assist Russia with the elimination of its intercontinental ballistic
           missiles. The SOAE-Russia Agreement also did not require Russia to provide the
           resources necessary for destroying its solid rocket motors. In September 2003,
           the DUSD(TSP&CP) secured an amendment to the SOAE-Russia implementing
           agreement that includes U.S. assistance to disassemble and store solid rocket
           motors and Russia’s commitment to use the assistance.

           Fissile Material Implementing Agreement. The FMSF Agreement describes
           DoD and MINATOM responsibilities for the FMSF. However, it does not
           provide assurances that Russia will provide or store eligible fissile material8 in the
           FMSF. In addition, the FMSF Agreement does not provide transparency rights to
           DoD that would provide confidence that the types and quantities of fissile
           material that will be stored at the FMSF are eligible fissile material.

                   Storage of Fissile Material. While the FMSF Agreement states that DoD
           will provide materials, training, and services to Russia for design assistance,
           construction, construction support, and operation of the FMSF, that agreement
           does not require or specify that Russia will store any amount or types of fissile
           material in the FMSF. In addition, the FMSF Agreement is with the Russian
           executive agent MINATOM, but according to the Director for CTR Policy, nearly
           40 percent of the fissile material intended to be stored at the FMSF is in the
           custody of the Russian Ministry of Defense. As of November 2003, the FMSF
           Agreement did not require MINATOM to obtain the fissile material from the
           Ministry of Defense, and DoD did not have a separate agreement for obtaining the
           fissile material from the Ministry of Defense. As such, DoD does not have
           adequate assurance that Russia will provide or store any amount or types of
           eligible fissile material in the FMSF.

                   Management Actions Taken. In early 2002, following Russia’s
           admission that it had used the liquid propellant intended for the LPDF in its space
           program, DoD determined that it needed a written commitment from the Russian
           government stating Russia’s plans for storing the fissile material in the FMSF.
           According to the cable from the August 2002 Executive Review, MINATOM
           officials verbally agreed to amend the FMSF Agreement to commit Russia to
           storing 34 metric tons of eligible plutonium (8,500 containers) in the FMSF, but
           MINATOM officials did not know how much HEU Russia would store in the

8
    DoD considers eligible fissile material to consist of plutonium with an isotopic ratio of Plutonium-240 to
    Plutonium-239 of no more than 0.1 and uranium with an average assay of 90 percent or greater of the
    uranium isotope 235.



                                                       10
facility. In December 2002, DoD proposed an amendment to the FMSF
Agreement requiring MINATOM to store at least 34 metric tons of eligible
plutonium and an unspecified amount of eligible HEU in the FMSF. At the
January 2003 Executive Review that was attended by representatives from the
IG DoD, MINATOM officials stated that they could not commit to an amount of
plutonium or HEU that Russia would store in the facility without concurrence
throughout the Russian government. In addition, they stated there was no need
for an amendment to the FMSF Agreement because the facility was already
90 percent complete.

        After the January 2003 Executive Review, the DUSD(TSP&CP) expressed
concern over Russia’s reluctance to conclude the proposed amendment to the
FMSF Agreement. In a letter dated April 10, 2003, to the Director, Department of
International and External Economic Cooperation at MINATOM, the
DUSD(TSP&CP) requested that DoD and MINATOM conclude the proposed
amendment by April 25, 2003. By June 2003, the DUSD(TSP&CP) had not
received a response from Russia. Thus, on June 19, 2003, the Deputy Secretary
of Defense sent a letter informing the Minister of MINATOM that DoD would
consider suspending CTR assistance to MINATOM if an agreement could not be
reached on the proposed amendment by the end of June 2003. In a letter dated
July 1, 2003, the Minister stated that:
           The very title of the [Fissile Material] agreement reflects our
           responsibilities with respect to the use of the FMSF. It is being
           constructed for the storage of “fissile materials derived from the
           destruction of nuclear weapons.”

        The Minister also stated that Russia planned to store 25 metric tons of
plutonium (6,250 containers) in the FMSF, but the 9 metric tons of plutonium
oxide produced by nuclear reactors would be stored at other Russian facilities. In
addition, he stated that the 25 metric tons of plutonium would decrease if the
Plutonium Disposition Agreement commenced by 2005 or 2006. The Minister
stated that Russia was reprocessing HEU into low enriched uranium for delivery
to the United States under the Uranium Purchase Agreement. Therefore,
according to the Minister’s response, if Russia stores 25 metric tons of plutonium
and no HEU in the FMSF, only one-fourth of the containers and storage capacity
of the FMSF would be used. In addition, when Russia begins removing the
plutonium from the FMSF under the Plutonium Disposition Agreement, there will
be additional excess storage space at a rate of at least 2 metric tons per year.

Transparency Agreement. As of November 2003, the FMSF Agreement did not
provide transparency rights for DoD once construction of the FMSF was
complete, as recommended by the “Report of the Committee on National
Security, House of Representatives on H.R. 1119,” June 16, 1997. In that report,
the committee stated that the most significant uncertainty of the FMSF project
was the lack of any transparency agreements that would allow the United States to
verify the quantity and type of fissile materials stored at the FMSF. In addition,
the committee believed that continuing to fund the FMSF without a formal
agreement that clarified and codified U.S. rights weakened the U.S. negotiating
position. Therefore, the committee recommended a provision that would prohibit
the obligation of FY 1998 funds for the FMSF until a transparency agreement


                                      11
with Russia was signed. Public Law 105-85, section 1407(2), “National Defense
Authorization Act for FY 1998,” states that CTR funds cannot be obligated or
expended for planning, design, or construction of a storage facility for Russian
fissile material until 15 days after the Secretary of Defense notifies Congress that
the United States and Russia have entered into an agreement incorporating the
principle of transparency with respect to the use of the facility.

The Secretary of Defense notified Congress on August 8, 1999, that DoD had
reached an agreement with MINATOM incorporating the principle of
transparency with respect to the use of the facility. The notification to Congress
included a “Report on Mayak Fissile Material Storage Facility Transparency,”
discussing the requirement in Public Law 105-85 for a transparency agreement.
The report states that in January 1996 at a session of the Gore-Chernomyrdin
Commission, the then-Secretary of Defense and then-Minister of Atomic Energy
signed a status report that reaffirmed the requirement for transparency measures at
the FMSF. The report also stated that DoD and MINATOM were near
completion of a protocol to the FMSF Agreement that would provide transparency
measures at the FMSF. However, as of November 2003, more than 7 years later,
the protocol had not been completed.

DoD and MINATOM began negotiations to include transparency measures in the
FMSF Agreement in October 1997. U.S. negotiation objectives had been to
ensure that the fissile material stored at the FMSF came from dismantled nuclear
weapons, that the material would be safe and secure, and that the material would
not be used again for nuclear weapons. According to CTR Policy officials, as of
July 2003, there have been 17 rounds of discussions on transparency measures at
the FMSF. By August 1999, after seven rounds of discussions, DoD and Russia
agreed on procedures for ensuring that the fissile materials would be safe and
secure and would not be used again for nuclear weapons. Transparency measures
were never reached for the objective that the fissile material came from
dismantled nuclear weapons. The Director of CTR Policy stated that as a result of
a National Security Council decision document, DoD changed that negotiation
objective to an objective that fissile material stored at the FMSF is weapons grade
material. However, as of November 2003, DoD and MINATOM had not reached
an agreement allowing the United States transparency rights at the FMSF.

Chemical Weapons Implementing Agreement. Although in December 1996
DoD and Russia developed a plan to destroy neutralized nerve agents at the
CWDF by bituminization, the CWDF Agreement does not require Russia to
destroy nerve agents through the designed bituminization process. In addition,
the agreement does not require Russia to provide all the necessary approvals for
construction in a timely manner. Further, the agreement limits Russia’s
responsibility to using materials and services provided exclusively for the purpose
of creating the CWDF and to ensuring that Russian officials expeditiously process
materials for delivery to their ultimate destination in Russia.




                                     12
Risk Management
          DoD did not identify risks or have adequate controls in place to mitigate risk
          when managing projects. Although DTRA began preparing annual project plans
          in 1996 for CTR projects, project plans did not include risks until 2000. Even
          then, project plans did not always identify significant risk factors, assign adequate
          levels of risk, or adequately address efforts to mitigate risk. Identifying risks and
          taking steps to mitigate them prior to initiating a project will ensure better
          stewardship of Government resources.

          Liquid Propellant Disposition Facility and Solid Rocket Motor Disposition
          Facility Project Plans. In IG DoD Report No. D-2002-154 and Report
          No. D-2003-131, we reported that DTRA did not adequately identify the risks
          associated with the LPDF and SRMDF projects in its project plans. As early as
          December 1992, Russian officials had informed DoD officials of plans to use
          some of the liquid propellant from ballistic missiles for space launches. In 2000,
          DTRA began including general and specific risks in its project plans, which
          DTRA updated annually. Although the project plans prepared since 2000 for the
          LPDF and SRMDF identified several risks, the LPDF plans never identified the
          risk that Russia might use the propellant for other purposes, and the SRMDF plan
          did not identify land allocation as a risk until 2002.

          Risks to the Utilization of the Fissile Material Storage Facility. DTRA did not
          adequately identify the risks associated with the use of the FMSF in any of its
          FMSF project plans through 2003. Specifically, those project plans did not
          identify that Russia may not store amounts and types of fissile material at the
          FMSF that the facility was designed to hold. Although that risk existed from the
          beginning of the FMSF project because implementing agreements for the project
          did not commit Russia to storing specific types or amounts of fissile material, the
          risk increased in February 1993, when the United States agreed to purchase
          500 metric tons of uranium from Russia. According to the November 2000 FMSF
          project plan, Russian officials informed DoD that Russia would not store HEU in
          the FMSF because of the Uranium Purchase Agreement. While the facility was
          designed to store 268 metric tons of HEU and 34 metric tons of plutonium, the
          U.S. General Accounting Office reported that U.S. agencies were unable to
          confirm Russia’s fissile material storage needs.9 Officials from CTR Policy and
          DTRA stated that they did not know how the storage capacity of the FMSF was
          determined.

          DoD efforts to mitigate the risk were limited. DoD took no action to suspend or
          stop the FMSF project, pending a commitment from Russia to store HEU and
          plutonium at the facility. According to DoD and DTRA records, DoD first
          attempted to obtain a commitment from Russia in 2002, however, through
          November 2003, DoD has been unable to obtain a commitment. After Russia
          informed DoD that HEU would not be stored at the FMSF, DTRA took action to
          ensure that the FMSF would be able to store additional plutonium. Specifically,
          DTRA sponsored a study to determine if the FMSF could handle the additional

9
    Report No. NSIAD-99-76, “Weapons of Mass Destruction: Effort to Reduce Russian Arsenals May Cost
    More, Achieve Less Than Planned,” April 13, 1999.



                                                  13
     heat generated from the plutonium. The study determined that although the
     FMSF was designed to store up to 34 metric tons of plutonium, the facility is
     capable of storing 100 metric tons of plutonium. Had DoD considered the
     Uranium Purchase Agreement and attempted to obtain the commitment earlier in
     the project, DoD may have had more assurance that Russia would fully utilize the
     FMSF for its intended purpose.

     Risks to the Utilization of the Chemical Weapons Destruction Facility.
     DTRA did not identify all significant risk factors or assign adequate levels of risk
     when assessing the CWDF project. Although DTRA identified cost, schedule,
     performance, and partnering with Russia as risk factors in its project plans for
     2000 through 2002, it did not identify environmental concerns or Russian laws as
     risks. In addition, for the risk factors identified, DTRA evaluated those factors as
     low risk. For example, in its project plans for 2000 through 2002, DTRA rated
     partnering with Russia as a low risk, even though the CWDF project depends on
     Russia’s construction of social infrastructure and utilities. DTRA also rated the
     schedule as low risk in its project plans for 2000 through 2002 even though DoD
     was prohibited from obligating or expending FY 2000 or future CTR funds until
     the Secretary of Defense certified to Congress that Russia was complying with
     conditions in Public Law 106-65, “National Defense Authorization Act for
     FY 2000.” DoD was unable to obligate or expend FY 2000 through FY 2003
     appropriations to plan, design, or construct the CWDF until the President waived
     the conditions on January 10, 2003, as authorized by Public Law 107-248,
     “Department of Defense Appropriations Act for FY 2003.”


Project Cost
     DoD investments in facilities to assist Russia with its weapons of mass
     destruction will either not be used or are at risk of not being fully used by Russia.
     As of July 2003, DoD has spent $372.8 million for containers and to design and
     construct the FMSF and $203.9 million for the CWDF, but Russia may not fully
     utilize those items to store fissile material and destroy chemical weapons as
     planned. That situation is similar to U.S. efforts to assist Russia in converting
     liquid propellant into commercial products, which cost the United States
     $95.5 million, and destroying solid rocket motors, which cost the United States
     $99.7 million.

     Fissile Material Storage Cost. The $372.8 million U.S. investment in the FMSF
     and fissile material containers is at risk because Russia has not committed to the
     quantity or types of fissile material to be stored in the facility, nor have they
     agreed on transparency measures at the facility. Therefore, DoD does not have
     assurance that the facility will be fully utilized or that Russia will store only
     eligible fissile materials. Had DoD obtained commitments from MINATOM on
     the quantity and types of fissile material to be stored in the facility in 1995 when
     the FMSF Agreement was amended for construction, DoD would have more
     assurance that Russia will fully utilize the FMSF to store eligible fissile material.
     Also, had DoD and MINATOM agreed on transparency measures before DoD
     obligated and spent FY 1998 funds, as noted by the House Committee on National
     Security, DoD would be in a better position to negotiate transparency rights.


                                          14
    Chemical Weapons Destruction Cost. The $203.9 million U.S. investment for
    the CWDF is at risk because of potential CWDF construction delays and the
    potential that Kurgan Oblast officials will rescind the land allocation. As DTRA
    continues construction, additional funds will be at risk. For example, delays in
    approving design packages could impact the prime construction period in Siberia,
    which can have severe winters. Those delays could put DoD in a position of
    expending more funds to work year-round in order to complete construction,
    which, according to the DTRA program manager, is scheduled for
    December 2006. The DTRA program manager also stated that although waste
    storage bunkers will still be required if the Munitions Agency incinerates the
    neutralized chemicals, the $1.1 million spent to design the bituminization building
    will be lost. Additional funds could be lost if the Governor of the Kurgan Oblast
    rescinds the land allocation or the environmental inspectors suspend construction
    of the CWDF over the water drawdown design. DoD could potentially lose all
    funds spent from project initiation through the date the allocation is rescinded or
    the suspension occurs. In addition, under the terms of the contract to construct the
    CWDF, DoD would be obligated to pay settlement costs for terminating the
    contract and would also incur expenses to remove and dispose of equipment and
    materials used or installed at the facilities.


Prior Report Recommendations and Management Actions
  Taken
    Liquid Propellant Disposition Report. In IG DoD Report No. D-2002-154, we
    recommended that the Under Secretary of Defense for Policy negotiate
    amendments to CTR Program implementing agreements with Russia to ensure
    that weapons systems and their components are provided, that adequate access
    rights are granted to DoD, and that remedies are in place if Russia fails to use the
    assistance provided by DoD. We also recommended that the Under Secretary of
    Defense for Policy implement risk mitigation in achieving CTR program
    objectives, request that Russia use the proceeds from the sale of the liquid
    propellant for CTR Program purposes, and expedite a determination of the future
    of the LPDF. We recommended that the Director, DTRA perform more complete
    inspections of equipment provided to Russia, identify potential alternative uses
    for weapons material when the United States anticipates making significant
    investments in facilities to destroy or convert weapons materials, and to report to
    the Under Secretary of Defense for Policy annually, or as needed, any risks to
    achieving program objectives.

    The DUSD(TSP&CP) and the Director, DTRA concurred with the
    recommendations. As of November 2003, the DUSD(TSP&CP) secured
    amendments to two implementing agreements with Russia–the SOAE-Russia
    Agreement and the Chemical Weapons Agreement. The amendments to the
    SOAE-Russia Agreement commit Russia to using storage facilities provided by
    DoD for storing solid rocket motors and commit the Russian Aviation and Space
    Agency to meeting semi-annually with DoD to certify a plan that describes
    assumptions, requirements, and responsibilities for CTR projects under the
    SOAE-Russia Agreement. The amendments to the Chemical Weapons
    Agreement commit Russia to eliminating all nerve agents at the CWDF and to


                                         15
complete a practical plan for their destruction by March 2004. Those
amendments, however, do not include remedies for Russian nonperformance
because the DUSD(TSP&CP) stated that including remedies in implementing
agreements might not be beneficial from a policy perspective. On February 4,
2003, the Deputy Secretary of Defense approved the dismantlement and salvage
of the LPDF. On February 27, 2003, the Director, DTRA sent a report to the
DUSD(TSP&CP) that identified risks to achieving CTR program objectives. For
the FMSF, the risks included construction delays and the lack of a transparency
agreement. For the CWDF, the risks included resolution of legislative
requirements.

Solid Rocket Motor Report. In IG DoD Report No. D-2003-131, we
recommended that the DUSD(TSP&CP) prepare and negotiate a written
implementing agreement with the Russian executive agent to establish the
responsibilities and commitments of each party for the disposal of solid rocket
motors. We also recommended that the DUSD(TSP&CP) expedite the
determination of the future of the facilities and equipment purchased for the
SRMDF project. We recommended that the Director, DTRA prepare written
acquisition plans prior to issuing solicitations and contracts for CTR projects and
design and implement a milestone decision review and program baseline process.
We also recommended that the Director, DTRA ensure that project managers
maintain all necessary documents and correspondence.

The DUSD(TSP&CP) and Director, DTRA concurred with the recommendations.
On September 25, 2003, the DUSD(TSP&CP) secured an amendment to the
SOAE-Russia implementing agreement that commits Russia to eliminating a set
amount of solid rocket motors in 2004 and 2005 and to work toward establishing
a schedule for eliminating the remaining rocket motors. For the facilities and
equipment purchased for the SRMDF project, the Deputy Under Secretary stated
that DTRA is implementing its SRMDF infrastructure closeout plan, and
acknowledged that it is taking longer than expected to analyze options for the two
buildings at the project site. The Director, DTRA stated that since 2001, DTRA
has been preparing acquisition plans before issuing solicitations and contracts for
CTR projects and would continue the practice. In reference to designing and
implementing a milestone decision review and program baseline process, the
Director, DTRA stated that in 2000, DTRA began using contracts that provide
decision points and later implemented phased contracting, which provides even
more decision points during project execution. The Director also commented that
DTRA recently established a process for major acquisition programs, including
one CTR project—the CWDF. Although not required to comment, the Assistant
to the Secretary of Defense (Nuclear and Chemical and Biological Defense
Programs) agreed with our recommendation and stated that the new Deputy
Assistant to the Secretary of Defense for Chemical Demilitarization and Threat
Reduction is discussing the mechanics of a new, broader CTR decision process.
DTRA is developing a training program to ensure that project managers maintain
necessary documents and that they keep a record of contracting actions and
significant conversations with representatives of former Soviet Union countries.




                                    16
Conclusions
    Two current CTR projects, the FMSF and CWDF, are at risk of meeting the same
    fate as two other CTR projects that we reported on, the LPDF and SRMDF. The
    FMSF is at risk because MINATOM refused to commit to storing any quantity or
    type of fissile material in the FMSF, and DoD and Russia have not reached a
    transparency agreement that would allow DoD to monitor the contents of the
    facility. The CWDF is at risk because under Russian law, the Kurgan Oblast can
    rescind the land allocation for environmental reasons.

    DoD could have better managed the risks associated with those projects in order
    to protect investments and reduce costs. The agreements should have contained
    specific requirements that give Russia more responsibility for the storage and
    elimination of Russian weapons of mass destruction. In addition, DTRA needs to
    ensure that adequate controls are in place to identify and mitigate risks when
    managing CTR projects. For future CTR projects, DoD should negotiate
    implementing agreements up front that require Russia to provide the United States
    with all the necessary resources to assure that assistance is used for intended
    purposes. By requiring written commitments from Russia before a project starts,
    DoD will be in a better position to protect its investments.

    As a result of Russia not using DoD assistance for the LPDF and SRMDF
    projects, the Report of the Committee on Armed Services, House of
    Representatives, on H.R. 1588, for the “National Defense Authorization Act for
    FY 2004,” proposed limitations on the use of CTR funds until all required permits
    are obtained. Public Law 108-136, “National Defense Authorization Act for
    FY 2004,” requires the Secretary of Defense to determine the number and type of
    permits that may be required for the lifetime of projects and to obtain any permits
    that may be required to commence construction before DoD obligates more than
    40 percent of the total costs of new or incomplete CTR construction projects.
    Regarding ongoing, incomplete CTR construction projects, the Secretary of
    Defense must identify all the required permits no later than 120 days after
    enactment of Public Law 108-136. However, the limitation would not apply if the
    Secretary of Defense determines that it is in the national interest to obligate funds
    for a particular project and provides notice to the congressional Defense
    committees of the intent to obligate funds, along with complete justification. In
    addition, by the first Monday in February of each year, Public Law 108-136
    requires that the Secretary of Defense submit a certification to Congress that each
    facility constructed with CTR funds will be used for its intended purposes and
    that Russia remains committed to the intended use of the facility.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of congressional legislation, we revised
    Recommendation 1.a(2)(a) to reflect the requirement that the Secretary of Defense
    determine and obtain all permits before obligating 40 percent of the total cost on
    each CTR project.


                                         17
1. We recommend that the Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation):

      a. Negotiate amendments to Cooperative Threat Reduction Program
implementing agreements that require:

                (1) A written agreement from the Ministry of Defense that
outlines the types and quantities of fissile material to be provided for storage
at the fissile material storage facility.

Management Comments. DUSD(TSP&CP) concurred but stated that the written
agreement should be with MINATOM. DUSD(TSP&CP) further stated that DoD
is negotiating an amendment to the FMSF implementing agreement with
MINATOM that will satisfy the recommendation. DUSD(TSP&CP) expects the
amendment to be signed in December 2003.

Audit Response. Although DUSD(TSP&CP) concurred with the
recommendation, the comments were not fully responsive. While an agreement
with MINATOM to outline the quantities and types of fissile material to be stored
at the FMSF is necessary, DUSD(TSP&CP) did not address the recommendation.
We made the recommendation because a significant amount of fissile material is
in the custody of the Ministry of Defense and DoD does not have an agreement
with the Ministry of Defense to obtain the fissile material for storage. The FMSF
situation is also similar to the LPDF project. For the LPDF project, DoD had an
agreement with the Russian Aviation and Space Agency to construct a facility to
convert liquid rocket propellant, which was controlled by the Ministry of Defense,
into commercial products. However, according to officials from the Russian
Aviation and Space Agency, the Ministry of Defense informed them that Russia
had used the propellant for its commercial space program. An additional
commitment from the Ministry of Defense that outlines the types and quantities of
fissile material to be provided for storage in the FMSF would provide DoD further
assurance that Russia will use the facility for its intended purposes. In response to
the final report, we request that DUSD(TSP&CP) readdress the recommendation
to obtain an agreement from the Ministry of Defense.

               (2) The Russian Munitions Agency to:

                      (a) Obtain from the Russian Federal Directorate all
necessary design package approvals for the chemical weapons destruction
facility, prior to DoD expending more than 40 percent of the total cost of the
facility.

Management Comments. DUSD(TSP&CP) nonconcurred with the draft
recommendation. While DUSD(TSP&CP) agreed in principle, she stated that a
monetary cap would increase project costs without limiting risks.
DUSD(TSP&CP) stated that although DTRA has already expended nearly
35 percent of the total CWDF cost, there is no overall project risk resulting from
the failure of local Russian governments to approve over 50 design packages.
DUSD(TSP&CP) stated that problems with permits required for design packages
would not lead to suspension of overall construction. Rather, deficiencies with



                                     18
individual design packages would involve specific compliance issues with
building codes that could be rectified when they occur.

Audit Response. The comments from DUSD(TSP&CP) were not responsive.
While delays in obtaining design package approvals and related permits may not
lead to suspension of the overall construction, any needed design changes could
result in increased costs and schedule delays. Recent congressional legislation
recognized the need to reduce this risk. For new and incomplete construction
projects, Public Law 108-136, “National Defense Authorization Act for
FY 2004,” requires that the Secretary of Defense determine and obtain the number
and type of permits that may be required for the lifetime of the projects before
obligating more than 40 percent of the total cost of the project. For ongoing
construction projects that are incomplete, the Secretary of Defense must identify
the permits no later than 120 days after enactment of the law. The funding
limitation does not apply to projects that the Secretary of Defense determines are
in the national interest and necessary and submits a notification of intent to
obligate funds to congressional Defense committees, along with a justification.
We revised the draft recommendation to reflect the 40 percent requirement in
Public Law 108-136. In response to the final report, we request that
DUSD(TSP&CP) comment on the revised recommendation.

                    (b) Resolve concerns over the transportation of
chemical weapons into the Kurgan region with Kurgan Oblast officials and
the local populace.

Management Comments. DUSD(TSP&CP) did not comment on the
recommendation. We request that DUSD(TSP&CP) provide comments in
response to the final report.

                      (c) Commit to the bituminization process, as originally
planned.

Management Comments. DUSD(TSP&CP) did not comment on the
recommendation. We request that DUSD(TSP&CP) provide comments in
response to the final report.

       b. Reach a transparency agreement with the Ministry of Atomic
Energy for the fissile material storage facility before the facility’s scheduled
operational date of December 2003.

Management Comments. DUSD(TSP&CP) concurred with the recommendation
and stated that Policy is working diligently to secure an agreement that will
permit long-term monitoring of materials placed in the FMSF.

Audit Response. The comments from DUSD(TSP&CP) were partially
responsive. Although the FMSF is scheduled to be complete in December 2003,
DUSD(TSP&CP) did not provide a date when the transparency agreement would
be signed. In response to the final report, we request that DUSD(TSP&CP)
provide a copy of the transparency agreement, signed by MINATOM.




                                    19
       2. We recommend that the Director, Defense Threat Reduction
Agency issue a modification to the chemical weapons destruction facility
contract that will provide for the additional work required to resolve the
water drawdown issue.

Management Comments. The Director, DTRA concurred and provided a list of
tasks that the contractor must comply with in order to meet Russian
environmental regulations. As of November 9, 2003, the contractor had prepared
a detailed plan, reviewed environmental requirements for the disposition of
ground water, and awarded a subcontract for performing the hydrology work.




                                  20
Appendix A. Scope and Methodology
   We reviewed DoD methods and policies used to administer the CTR program,
   which included program, project, and financial management. The review
   included provisions of Nunn-Lugar legislation, international agreements, DoD
   and DTRA directives relating to program management, an engineering
   management support contract, and the Chemical Weapons Convention. We also
   reviewed Kurgan Region Administration (Government) Decree No. 17-p;
   Shchuch’ye Area Administration Kurgan Region Decree No. 54-p; Inspection
   State Architectural and Construction Oversight, Russian Ministry of Defense
   Permit No. 001.04.1.11 for Construction and Installation; Federal Directorate for
   the Safe Storage and Destruction of Chemical Weapons, Russian Munitions
   Agency Permit for Construction No. 1-2002; Kurgan Region Construction Permit
   No. 18; Kurgan Region Administration (Government) Resolution No. 153; the
   Government of the Russian Federation Resolution No. 510; and Russian Federal
   Law No. 7-FZ, “On Environmental Protection.” The documentation reviewed
   was dated from July 1991 through September 2003.

   We performed a risk assessment to identify CTR projects in Russia for review.
   The risk assessment included a review of CTR project plans to identify and
   evaluate project risks reported by DTRA and to identify unreported risk factors.
   We combined the risk factors identified in CTR project plans with the unreported
   risk factors and assigned a rating to determine which projects presented the
   greatest risk of not being used for their intended purposes.

   We conducted interviews with officials from the Office of the Under Secretary of
   Defense for Policy, DTRA, the Corps, Russian officials, and representatives from
   U.S. contractors. We also visited Russia to review contract files and observe
   work performed at the CWDF construction site.

   We performed this audit from October 2002 through November 2003 in
   accordance with generally accepted government auditing standards.

   We relied on the interpretation and translation skills of individuals employed by
   U.S. contractors when meeting with Russian officials and reviewing translations
   of Russian documents.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the Centralized Accounting and Financial Resource
   Management System, which accounts for DTRA funds, because that was outside
   the scope of our review. To support the amount that the United States spent for
   the CWDF and the FMSF projects, we relied on data from that system.
   Inadequate controls in the Centralized Accounting and Financial Resource
   Management System could affect the disbursements included in this report.




                                       21
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls within the CTR Program at DTRA.
    Specifically, we reviewed management controls over project management. We
    also reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses within the CTR Program as defined by DoD
    Instruction 5010.40. Management controls over the CTR Program were not
    adequate to ensure that facilities constructed to aid Russia in the storage and
    destruction of weapons of mass destruction are used for their intended purpose. If
    implemented, the recommendations will correct the identified weaknesses and
    could result in better protection of the $576.7 million investment by the United
    States. A copy of the report will be provided to the senior official responsible for
    management controls in the CTR Program at the Defense Threat Reduction
    Agency.

    Adequacy of Management’s Self-Evaluation. DTRA identified the CTR
    Program as an assessable unit and, in our opinion, correctly identified CTR
    international agreements and CTR property management as material management
    control weaknesses. However, DTRA did not report CTR construction
    management as having management control weaknesses. Although we identified
    the material weakness, we are making no recommendations because IG DoD
    Report No. D-2002-154 and IG DoD Report No. D-2003-131 contain
    recommendations to CTR Policy and DTRA that should correct the material
    weakness identified in this report.

    DTRA identified and reported the material management control weakness for
    international agreements identified in our audit. The Office of The Under
    Secretary of Defense for Policy, which is the office responsible for authorizing the
    negotiation and conclusion of international agreements, developed procedures to
    correct the weakness.




                                         22
Appendix B. Prior Coverage
   During the last 5 years, the General Accounting Office (GAO) and the IG DoD
   have issued 16 reports discussing the Cooperative Threat Reduction Program,
   including congressional testimonies. Unrestricted GAO reports can be accessed
   over the Internet at http://www.gao.gov. IG DoD reports can be accessed at
   http://www.dodig.osd.mil/audit/reports.


GAO
   GAO Report No. GAO-03-1008R, “FY 2004 Annual Report on the Cooperative
   Threat Reduction Program,” July 18, 2003

   GAO Report No. GAO-03-627R, “FY 2003 Annual Report on the Cooperative
   Threat Reduction Program,” April 8, 2003

   GAO Report No. GAO-03-526T, “Weapons of Mass Destruction: Observations
   on U.S. Threat Reduction and Nonproliferation Programs in Russia,” March 5,
   2003

   GAO Report No. GAO-03-341R, “Cooperative Threat Reduction Program Annual
   Report,” December 2, 2002

   GAO Report No. GAO-01-694, “Cooperative Threat Reduction: DoD Has
   Adequate Oversight of Assistance, but Procedural Limitations Remain,”
   June 19, 2001

   GAO Report No.NSIAD-00-138, “Biological Weapons: Effort to Reduce Former
   Soviet Threat Offers Benefits, Poses New Risks,” April 28, 2000

   GAO Report No. NSIAD-00-40, “Cooperative Threat Reduction: DoD’s 1997-98
   Reports on Accounting for Assistance Were Late and Incomplete,”
   March 15, 2000

   GAO Report No. T-NSIAD/RCED-00-119, “Weapons of Mass Destruction:
   U.S. Efforts to Reduce Threats From the Former Soviet Union,” March 6, 2000

   GAO Report No. RCED/NSIAD-00-82, “Nuclear Nonproliferation: Limited
   Progress in Improving Nuclear Material Security in Russia and the Newly
   Independent States,” March 6, 2000

   GAO Report No. NSIAD-99-76, “Weapons of Mass Destruction: Effort to
   Reduce Russian Arsenals May Cost More, Achieve Less Than Planned,”
   April 13, 1999




                                     23
IG DoD
    IG DoD Report No. D-2003-131, “Cooperative Threat Reduction Program: Solid
    Rocket Motor Disposition Facility Project,” September 11, 2003

    IG DoD Report No. D-2003-059-T, “Statement of David K. Steensma, Deputy
    Assistant Inspector General for Auditing, Office Inspector General of the
    Department of Defense to the House Committee on Armed Services on
    U.S.-Russian Cooperative Threat Reduction and Non-Proliferation Programs,”
    March 4, 2003

    IG DoD Report No. D-2002-154, “Cooperative Threat Reduction Program Liquid
    Propellant Disposition Project,” September 30, 2002

    IG DoD Report No. D-2002-033, “Management Costs Associated With the
    Defense Enterprise Fund,” December 31, 2001

    IG DoD Report No. D-2001-074, “Cooperative Threat Reduction Program,”
    March 9, 2001

    IG DoD Report No. D-2000-176, “Defense Enterprise Fund,” August 15, 2000




                                      24
Appendix C. Report Distribution

Office of the Secretary of Defense
Deputy Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Assistant to the Secretary of Defense (Nuclear, Chemical, and Biological Defense
     Programs)
     Deputy Assistant to the Secretary of Defense (Chemical Demilitarization and
        Threat Reduction)
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Policy)
     Deputy Under Secretary of Defense (Technology Security Policy and
        Counterproliferation)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
General Counsel of the Department of Defense

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Commander in Chief, U.S. European Command

Other Defense Organizations
Director, Defense Threat Reduction Agency




                                          25
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations
House Subcommittee on International Terrorism, Nonproliferation and Human Rights,
  Committee on International Relations




                                        26
Under Secretary of Defense for Policy
Comments
                                        Final Report
                                         Reference




                                        Revised




                                        Revised




                       27
Final Report
 Reference




Revised
Page 3




               28
     Final Report
      Reference




     Revised




29
Final Report
 Reference




Revised




Revised


Revised

Revised




Revised


Revised
Page 9




               30
Defense Threat Reduction Agency Comments




                    31
32
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.
Shelton R. Young
Evelyn R. Klemstine
Donney J. Bibb
Michael T. Brant
Lynne M. Champion
Mason A. Kaur
David L. Leising
Susann L. Cobb
